D-2010-064                                     May 21, 2010






             Army Vessels Maintenance Contracts 

                     in Southwest Asia


Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
COR              Contracting Officer’s Representative
DFARS            Defense Federal Acquisition Regulation Supplement
FAR              Federal Acquisition Regulation
HEISCO           Heavy Engineering Industries & Shipbuilding Company
IGE              Independent Government Estimate
J&A              Justification and Approval
LSV              Logistics Support Vessel-4
MARAV            Master Agreement for Repair and Alteration of Vessels
MICC-EU          Mission and Installation Contracting Command-Fort Eustis
NRCC             Naval Regional Contracting Command Naples, Detachment Bahrain
U.S.C.           United States Code
                                  INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DAIVE 

                               ARLINGTON, VI RG INIA 22202-4704 



                                                                              May21 , 20IO

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               INSPECTOR GENERAL, DEPARTMENT OF THE NAVY

SUBJECT: 	 Army Vessels Maintenance Contracts in Southwest Asia (Report
           No. D-20IO-064)

We are providing this report for review and comment. This is the second report in a series
of audits of the Army and Navy ship maintenance contracts. We considered management
comments on a draft of this report when preparing the final report.

The Assistant Secretary of the Anny (Financial Management and Comptroller), and Legal
Counsel, Fleet and Industrial Supply Center, Sigonella, Detachment Bahrain, comments
were responsive. However. the Director, Mission and Installation Contracting Command­
Fort Eustis. provided generally favorable comments, but they were received too late to
include in the repon. DOD Directi ve 7650.3 requires that all issues be resolved promptly.
Therefore, if the Director, Mission and Installation Contracting Command-Fort Eustis,
does not submit additional comments by June 2 1, 20ID, we will consider the comments
received as the response to the final report. Due to management actions, we added
Recommendation B.3 to the final report. Therefore, we request that the Director, Mission
and Installation Contracting Command-Fon Eustis, comment on Recommendation B.3 by
June 21 , 2010.

If possible, send a .pdf file containing your comments to audacm@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place o f the actual
signature. If yo u arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071 (DSN 664-907 1).




                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
 Report No. D-2010-064 (Project No. D2009-D000AS-0163.001) 	                                May 21, 2010
                Results in Brief: Army Vessels Maintenance
                Contracts in Southwest Asia
What We Did                                             What We Recommend
The overall objective was to determine whether          The Assistant Secretary of the Army (Financial
contracts providing ship repairs and maintenance to     Management and Comptroller) initiate a preliminary
the Army operations in Kuwait and Navy operations       review of the potential Antideficiency Act violation
in Bahrain and United Arab Emirates were properly       to determine whether a violation occurred, and
managed and administered. For this report, we           provide the results to the Office of Inspector General.
reviewed competition, price reasonableness
determinations, and quality assurance controls in       The Director, MICC-EU:
15 contracts valued at $51.8 million for Army vessels    	 require contracting officers to provide full and
maintenance in Kuwait. The findings on the two               open competition, justify and document all
Navy locations will be included in follow-on reports.        contract awards without adequate competition;
                                                         		 require contracting officers to stop using the 

What We Found                                                June 8, 2004, NRCC Legal Counsel 

The Mission and Installation Contracting Command-            memorandum;

Fort Eustis (MICC-EU) adhered to the surveillance        	 require the contracting officers to request other
and acceptance requirements for contracts reviewed.          than cost and pricing data, document fair and
However, MICC-EU contracts did not have adequate             reasonable price determinations, and establish
contract competition, price reasonableness                   employee performance standards for contracting
determinations, and funding. Specifically, MICC-EU           officers; and
contracting officers:                                    	 correct funding for contract W912SU-06-G-
  	 did not adhere to competition requirements for          0003-0008 with the appropriate fiscal year 

      all 15 contracts because they relied on an             funds (if available) to address the bona fide 

      incorrect legal opinion from Naval Regional            needs rule violation. 

      Contracting Command Naples, Detachment
      Bahrain (NRCC); as a result, they may not have The Legal Counsel, Fleet and Industrial Supply
      obtained the best price for approximately         Center, Sigonella, Detachment Bahrain, withdraw the
      $51.8 million in contracting actions;             NRCC memorandum, dated June 8, 2004.
  	 did not ensure price reasonableness
      determinations were performed because they        Management Comments and Our
      did not follow the Federal Acquisition            Response
      Regulation; as a result, they may not have
                                                        The Assistant Secretary of the Army (Financial
      obtained the lowest price for more than
                                                        Management and Comptroller) and the Legal
      $29.9 million in sole-source contracting actions;
                                                        Counsel, Fleet and Industrial Supply Center,
      and
                                                        Sigonella, Detachment Bahrain, were responsive to
  	 incorrectly funded one contract because the        Recommendations C.2 and A.2 respectively.
      contracting officer used $2.9 million in          Because management developed new policies during
      FY 2006 funds instead of FY 2007 funds; as a the audit that were not formalized, we added
      result, they violated the bona fide needs rule    Recommendation B.3 to the final report. The
      and may have violated the Antideficiency Act. Director, MICC-EU, provided generally favorable
                                                        comments, but they were received too late to include
                                                        in the report. We request the Director, MICC-EU,
                                                        comment on Recommendation B.3 by June 21, 2010.
                                                        Please see recommendations table on page ii.

                                                        i
Report No. D-2010-064 (Project No. D2009-D000AS-0163.001)          May 21, 2010



Recommendations Table 


Management                        Recommendations     No Additional Comments
                                  Requiring Comment   Required
Assistant Secretary of the Army                       C.2
(Financial Management and
Comptroller)
Director, Mission and             B.3                 A.1, B.1, B.2, and C.1
Installation Contracting
Command-Fort Eustis
Legal Counsel, Fleet and                              A.2
Industrial Supply Center,
Sigonella, Detachment Bahrain

Please provide comments by June 21, 2010.




                                        ii
Report No. D-2010-064 (Project No. D2009-D000AS-0163.001)           May 21, 2010



Table of Contents

Introduction                                                                       1


      Objectives                                                                   1

      Background                                                                   1

      Review of Internal Controls                                                  3


Finding A. Competition                                                             4


      Recommendations, Management Comments, and Our Response                       7


Finding B. Price Reasonableness                                                    8


      Recommendations, Management Comments, and Our Response                   11 


Finding C. Financial Accountability Improvements Needed                        13 


      Recommendations, Management Comments, and Our Response                   15 


Appendix

      Scope and Methodology                                                    17 


Management Comments

      Assistant Secretary of the Army (Financial Management and Comptroller)   19 

      Fleet and Industrial Supply Center, Sigonella, Detachment Bahrain        20


Introduction
Objectives
This is the second in a series of reports on the Army and Navy ship maintenance
contracts for Southwest Asia. The overall objective was to determine whether contracts
providing ship repairs and maintenance to Army operations in Kuwait and Navy
operations in Bahrain and United Arab Emirates were properly managed and administ-
ered. The audit series will include reports on the contracts we reviewed in the U.S. Army,
Mission and Installation Contracting Command-Fort Eustis (MICC-EU); U.S. Naval Sea
Systems Command; and the Fleet and Industrial Supply Center. For this report, we
reviewed competition, price reasonableness determinations, and quality assurance
controls in 15 contracts valued at $51.8 million for Army vessels maintenance in Kuwait.
The findings on the two Navy locations will be included in follow-on reports. See
Appendix A for a discussion of our scope and methodology.

We performed this audit pursuant to Public Law 110-417, “The National Defense
Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of Spare
Parts Purchases and Depot Overhaul and Maintenance of Equipment for Operations in
Iraq and Afghanistan.” Section 852 requires “thorough audits to identify potential waste,
fraud, and abuse in the performance of Department of Defense contracts, subcontracts,
and task and delivery orders for (A) depot overhaul and maintenance of equipment for the
military in Iraq and Afghanistan; and (B) spare parts for military equipment used in Iraq
and Afghanistan.”

Background
U.S. Army Materiel Command
The U.S. Army Materiel Command provides materiel readiness—technology, acquisition
support, materiel development, logistics power projection, and sustainment—to the
Army, including the joint military operations. The Army Materiel Command is the
overarching organization for the Army Contracting Command, Army Sustainment
Command, and TACOM Life Cycle Management Command.

                              Army Logistics Support Vessel




                  Source: http://www.naval-technology.com/projects/lsv/lsv1.html


                                                1

   Army Contracting Command
The Army Contracting Command is the managing organization for the Mission and
Installation Contracting Command. The mission of the Army Contracting Command is
to provide worldwide support to the warfighter’s mission requirements through contract-
ing support for the acquisition of goods and services. The Army Contracting Command
performs the majority of the Army’s contracting work and consists of two subordinate
commands, the Mission and Installation Contracting Command and the U.S. Army
Expeditionary Contracting Command.

       Mission and Installation Contracting Command
The Mission and Installation Contracting Command has seven contracting centers
including MICC-EU. MICC-EU is the contracting office in charge of the Army contracts
in our sample and is responsible for base operations contracts in support of Fort Monroe,
Fort Story, Fort Eustis, Fort Lee, Fort Leavenworth, and Carlisle Barracks. In addition,
MICC-EU provides contracting support to the TACOM Life Cycle Management
Command depot-level maintenance for all Army watercraft in Kuwait. Through an
agreement between TACOM Life Cycle Management Command and the Army Sustain-
ment Command, MICC-EU provides contracting support for the Care of Stocks in
Storage requirements.

   Army Sustainment Command
The Army Sustainment Command is responsible for a wide range of logistics missions in
support of current and future combat operations. The Army Sustainment Command is
responsible for field-level maintenance (below depot-level) for the Army prepositioned
stock watercraft. The Army Sustainment Command established the requirements for 3 of
the 15 contracts in our sample.

   TACOM Life Cycle Management Command
The TACOM Life Cycle Management Command is responsible for life cycle manage-
ment of the Army’s ground and soldier systems and for systems and equipment support-
ing other services. The TACOM Life Cycle Management Command is responsible for
sustainment-level (depot-level) shipyard maintenance for Army watercraft in Kuwait and
established the requirements for 12 of the 15 Army contracts in our sample.

       Watercraft Inspection Branch
Watercraft Inspection Branch personnel, under TACOM Life Cycle Management
Command, are the technical and subject matter experts for the maintenance of Army
watercraft. The Watercraft Inspection Branch ensures the watercraft fleet is operational,
safe, and seaworthy. The Watercraft Inspection Branch conducts technical inspections,
develops maintenance specifications, and provides the contracting officer’s represent-
atives (CORs) to oversee the work of the contractors on-site in Kuwait.

Basic Ordering Agreements
For this audit, we judgmentally selected 15 firm-fixed-price contracts based on
geographical location and high dollar value amounting to approximately $51.8 million


                                            2


issued under basic ordering agreements. The Federal Acquisition Regulation (FAR)
states that basic ordering agreements are not contracts and defines them as written
negotiated agreements between the contracting office and the contractor that contain the
terms and clauses applying to future contracts. The work being performed on the ships
includes programmed dry-docking, cleaning, painting, and repair of the vessels.

Master Agreement for Repair and Alteration of Vessels
The 15 contracts reviewed were ordered under a Master Agreement for Repair and
Alteration of Vessels (MARAV). Defense Federal Acquisition Regulations Supplement
(DFARS) Subpart 217.71, “Master Agreement for Repair and Alteration of Vessels,” is a
written instrument of understanding, negotiated between a contracting activity and a
contractor that contains elements of a contract, but is not a contract. DFARS states that
when soliciting for contracts issued under a MARAV, the contracting officer must solicit
offers from both contractors with MARAVs and contractors without MARAVs who
possess the necessary qualifications to perform the work and agree to execute a MARAV
before award of the contract.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We determined that MICC-EU
adhered to the surveillance and acceptance requirements by appropriately designating a
COR on site for all contracts reviewed. Specifically, the contracting officers included
quality assurance measures built into the contracts identifying testing points that required
COR surveillance. To show their surveillance, the CORs created daily logs and weekly
progress reports documenting their consistent oversight of the contractor’s performance.
In addition, the CORs approved the invoices to show the Government received the
correct quantity and quality of work required before accepting the services. However, we
determined that MICC-EU did not have adequate internal controls for contract compet-
ition, price reasonableness determination, and funding. See the audit findings for detailed
information. Implementing the recommendations in Findings A, B, and C will improve
MICC-EU’s internal controls. We will provide a copy of the report to the senior official
responsible for internal controls at the Army Contracting Command and MICC-EU.




                                             3


Finding A. Competition
The MICC-EU contracting officers did not allow for full and open competition as
required by the FAR when awarding 15 contracts worth approximately $51.8 million.
This occurred because MICC-EU contracting officers did not review the international
agreement with Kuwait that they relied on when they awarded all 15 contracts to one
contractor. This also occurred because MICC-EU Legal Counsel instructed the contract-
ing officer to rely on an incorrect Naval Regional Contracting Center Naples, Detach-
ment Bahrain (NRCC) Legal Counsel opinion concerning MARAV holders to justify
sole-sourcing the contracts. As a result, the Army lost the benefits of competing bids and
obtaining the best price for the 15 contracts.

Criteria
The United States Code and the FAR provide guidance on contract competition require-
ments to ensure contracting officers appropriately perform contract administration and
make informed decisions. According to section 2304, title 10, United States Code, (10
U.S.C. 2304), “Contracts: Competition Requirements,” and FAR Subpart 6.1, “Full and
Open Competition,” contracting officers must provide for full and open competition
through the use of competitive procedure(s) for all acquisitions. When used with respect
to a contract action, the FAR defines full and open competition as permitting all respon-
sible sources to compete for the contract. However, FAR Subpart 6.3, “Other Than Full
and Open Competition,” allows contracting officers to award sole-source contracts with-
out providing for full and open competition if one of the following exceptions found in
FAR Subpart 6.302, “Circumstances Permitting Other Than Full and Open Competi-
tion,” and 10 U.S.C. 2304 applies:
     only one responsible source; 

     unusual and compelling urgency; 

     industrial mobilization, engineering, developmental, research capability, or expert 

        services; 

     international agreement; 

     authorized or required by statute; 

     national security; or 

     public interest. 


In addition, the FAR states that “each contract awarded without providing for full and
open competition shall contain a reference to the specific authority under which it was
awarded.”

FAR Subpart 6.302-4, “International agreement”
FAR Subpart 6.302-4, “International agreement,” states that full and open competition
need not be provided for when precluded by the terms of an international agreement or a
treaty between the United States and a foreign government or international organization.
Contracting officers using this authority to award contracts are not required to provide
written justification and approval (J&A) for DOD. Therefore, the contracting officers
should provide for full and open competition or create a J&A for a sole-source contract


                                            4


meeting one of the exceptions listed above, unless a valid international agreement was
created.

DFARS 217.7103, “Master Agreements and Job Orders”
DFARS 217.7103, “Master Agreements and Job Orders,” states that when soliciting for
contracts issued under a MARAV, the contracting officer must solicit offers from both
contractors with MARAVs and contractors without MARAVs who possess the necessary
qualifications to perform the work and agree to execute a MARAV before award of the
contract. The contracting officer still must provide for full and open competition as
required by FAR Subparts 6.1 and 6.3. DFARS states that for emergency work, the
contracting officer may issue a contract to a MARAV holder without soliciting offers
when a delay in the performance of necessary repair work would endanger the vessel or if
the military requires immediate work to be performed on the vessel. When issuing a
contract due to emergency work, DFARS states that the “contracting officer shall obtain
approval from the head of the contracting activity” before awarding the contract.

Reliance on Others
The MICC-EU contracting officers awarded 15 sole-source contracts solely on the verbal
advice of NRCC officials or a written opinion from the NRCC Legal Counsel.1 Specific-
ally, MICC-EU contracting officers stated that the NRCC officials told them that an
international agreement existed that required all ship maintenance repair contracts to be
awarded only to Heavy Engineering Industries & Shipbuilding Company (HEISCO).
The MICC-EU contracting officers told us that they had never seen the international
agreement and in fact sometimes doubted that it existed. We eventually obtained a copy
of the classified international agreement from TACOM Life Cycle Management
Command. The international agreement was signed in 1991 by then-Secretary of
Defense Richard Cheney and a Kuwaiti government official. MICC-EU contracting
officers could not provide a copy of the agreement or explain why they relied on a
document that they had never read. We reviewed the international agreement and could
not find any direction, statement, or requirement in the agreement that directed U.S.
Government contracting officers to award contracts only to HEISCO or any other
Kuwaiti contractor.

MICC-EU contracting officers stated that they also used a NRCC Legal Counsel
memorandum as a basis for awarding the contracts for ship maintenance in Kuwait.
Specifically, they stated that in the event that the international agreement did not meet the
FAR requirements for limiting competition, the contracting office would rely on the
NRCC Legal Counsel memorandum. The memorandum is a legal opinion, dated June 8,
2004, by the NRCC Legal Counsel.2 The MICC-EU legal counsel reviewed and agreed
with the NRCC Legal Counsel memorandum.


1
  The Fleet and Industrial Supply Center Sigonella Detachment Bahrain, formerly NRCC, administered the
Army vessels contracts in Kuwait prior to MICC-EU. Therefore, MICC-EU adapted NRCC procedures in
its contract administration.
2
  Due to attorney-client privilege, the NRCC Legal Counsel memorandum could not be quoted or included
in this report.

                                                  5

The basis of the NRCC Legal Counsel memorandum is that a justification and approval
document is not required if the contractor is a MARAV holder. The memorandum based
its statements on 10 U.S.C. 2304, “Contracts: competition requirements”; FAR Subpart
6.2, “Full and Open Competition After Exclusion of Sources”; FAR Subpart 6.3, “Other
Than Full and Open Competition”; and 10 U.S.C 2319, “Encouragement of New
Competitors.” The rationale used in the NRCC Legal Counsel memorandum is that
MARAV holders are part of a prequalified list known in the FAR as the qualified
products list. The memorandum concludes that solicitations involving only MARAV
holders do not require preparation of a J&A under FAR Subpart 6.3, because the
qualified products list process is an exception to the requirement for full and open
competition.

However, the following case law and regulation cited in the NRCC Legal Counsel
memorandum contradict the NRCC Legal Counsel’s conclusion.

   		 Government Accountability Office, case law B-261267, September 28, 1995,
       “Matter of: Supreme Edgelight Devices, Inc.,” states that the use of the qualified
       products list restricts competition and potential offerors must have the opportunity
       to demonstrate their ability to provide an acceptable product.

   		 FAR Subpart 9.2, “Qualifications Requirements,” and 10 U.S.C. 2319 state that
       “if a potential offeror can demonstrate, to the satisfaction of the contracting
       officers, that the potential offeror meets the standards established for qualification
       or can meet them before the date specified for award of the contract, the potential
       offeror may not be denied the opportunity to submit or be considered for a
       contract solely because the potential offeror—(1) Is not on a qualified products
       list, qualified manufacturers list, or qualified bidders list maintained by
       the DOD.”

The criteria and case law cited in the NRCC Legal Counsel memorandum state that being
on a qualified products list does not exclude MICC-EU from the competition require-
ments in the FAR and DFARS. [emphasis added]

The NRCC Legal Counsel’s opinion contained in the memorandum was inconsistent and
unclear. Specifically, when providing for other than full and open competition, FAR
Subparts 6.2 and 6.3 require the contracting officer to create either a determination and
finding or a J&A for the contract, unless an international agreement has been established.
[emphasis added] The NRCC Legal Counsel memorandum did not provide a valid basis
for its conclusion that a J&A was not required. MICC contracting officers relied on the
legal opinion, however, and did not create J&As for contracts issued to the Heavy
Engineering Industries & Shipbuilding Company, a MARAV holder.




                                             6


Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Director, Mission and Installation Contracting Command-
Fort Eustis:

       a. Require contracting officers to provide for full and open competition as
required by the Federal Acquisition Regulation Subpart 6.1, “Full and Open
Competition”; Subpart 6.302, “Circumstances for Permitting Other Than Full and Open
Competition”; Subpart 6.303-1, “Justifications”; section 2304, title 10, United States
Code, “Contracts: Competition Requirements”; and Defense Federal Acquisition
Regulation Supplement 217.7103, “Master Agreements and Job Orders,” to all ship
maintenance contracts.

        b. Require contracting officers to document and justify all contract awards using
any criteria other than full and open competition as required by the Federal Acquisition
Regulation Subpart 6.1, “Full and Open Competition.”

        c. Require contracting officers to discontinue their use of the June 8, 2004, Naval
Regional Contracting Center Naples, Detachment Bahrain, Legal Counsel memorandum
as an exception for circumventing full and open competition requirements.

Director, Mission and Installation Contracting Command-Fort
Eustis, Comments Received Late
The Director, Mission and Installation Contracting Command-Fort Eustis, provided
generally favorable comments on the draft report; however, they were received too late to
be included in the final report. Therefore, if the Director, Mission and Installation
Contracting Command-Fort Eustis, does not submit additional comments, we will
consider those comments as the management response to the final report.

A.2. We recommend that the Legal Counsel, Fleet and Industrial Supply Center,
Sigonella, Detachment Bahrain, withdraw the Naval Regional Contracting Center
Naples, Detachment Bahrain, memorandum dated June 8, 2004.

Legal Counsel, Fleet and Industrial Supply Center, Sigonella,
Detachment Bahrain, Comments
The Legal Counsel, Fleet and Industrial Supply Center, Sigonella, Detachment Bahrain,
agreed with Recommendation A.2. The Legal Counsel, Fleet and Industrial Supply
Center, Sigonella, Detachment Bahrain, stated that the Naval Regional Contracting
Center Naples, Detachment Bahrain, memorandum dated June 8, 2004, was withdrawn.

Our Response
The Legal Counsel, Fleet and Industrial Supply Center, Sigonella, Detachment Bahrain,
comments were responsive, and the actions meet the intent of this recommendation.




                                             7


Finding B. Price Reasonableness
The contracting officers at MICC-EU did not ensure that price reasonableness
determinations were performed for more than $29.9 million awarded in sole-source
contracts. Specifically, the contracting officers did not ensure price reasonableness was
determined for 4 of the 15 contracts when initially awarded for $18.2 million, and for all
15 contracts when over and above work was added amounting to an additional $11.8
million. This occurred because the contracting officers did not review or document the
price reasonableness determinations conducted by the COR to verify that these
determinations were complete or met FAR Part 15, “Contracting by Negotiation,”
requirements. As a result, MICC-EU contracting officers may not have received the
lowest price for more than $29.93 million in contracting actions.

Federal Acquisition Regulation
FAR Part 15 states that contracting officers must purchase supplies and services at fair
and reasonable prices. FAR Subpart 15.403-3, “Requiring information other than cost or
pricing data,” states that the contracting officer is responsible for obtaining information
that is adequate for evaluating the reasonableness of the price. The contracting officer
must require the offeror to submit information that, at a minimum, includes appropriate
information on the prices at which the same or similar item has previously been sold. In
addition, the FAR states that the Government may use various price analysis techniques
and procedures to ensure it gets a fair and reasonable price. Some of the techniques
include: a comparison of previously proposed prices, a comparison of proposed prices
with independent Government estimates (IGEs), a comparison of proposed prices with
those obtained through market research for the same or similar items, and analysis of
pricing information provided by the offeror. FAR Subpart 15.406-3, “Documenting the
Negotiation,” states that “the contracting officer shall document in the contract file the
principal elements of the negotiated agreement,” including the fair and reasonable pricing
determination. The documentation shall include an explanation of any significant
differences between the two positions.

Original Contract
We reviewed 15 contracts valued at approximately $51.8 million that were issued by the
MICC-EU contracting officer using a basic ordering agreement. We found that four
contracts, awarded for $18.2 million, did not comply with requirements for evaluating
price reasonableness. FAR 15.3, “Source Selection,” states that, normally, competition
establishes price reasonableness. However, these contracts were awarded to one
contractor without soliciting other bids. Therefore, the lack of competition requires the
contracting officer to perform additional actions to ensure fair and reasonable prices were
received. The MICC-EU contracting officers awarded the four contracts for amounts that
exceeded the IGEs by $5.5 million. However, the contracting files did not contain price
reasonableness determinations or documentation justifying the decision to award the
contracts for the proposed amounts. Table 1 illustrates the amount awarded over the IGE
for the four contracts.


3
    The total does not equal the sum of $18.2 million and $11.8 million due to rounding.

                                                       8

                        Table 1: Contracts Exceeding the IGE

                                                          Value of Awarded         Percent
                             Awarded         IGE
       Contract                                                Amount             Awarded
                              Value         Amount
                                                          Exceeding the IGE       Over IGE
W912SU-06-G-0003-0009        $6,748,220      $4,078,000             $2,670,220              65.48
W912SU-06-G-0003-0012         1,794,670       1,376,200                418,470              30.41
W912SU-06-G-0003-0013         2,205,020       1,841,050                363,970              19.77
W912SU-06-G-0003-0019         7,404,069       5,396,550              2,007,519              37.20
Total                       $18,151,979     $12,691,800             $5,460,179

The CORs stated that they created the IGEs based on historical data and experience.
Then the contracting officers stated that as part of their price analysis review, they
compare the contractors’ proposals against the IGEs. According to the chief contracting
officer, during the comparison of the two documents, if the contractor’s price was too
high or too low, the contracting officer would ask the COR to review the bid and verify
that the prices were appropriate. The COR stated that they would then verbally explain to
the contracting officer why the contractor’s price was reasonable or not, but neither the
contracting officer nor the COR documented this rationale in the contracting file. As a
result, the contracting files did not contain any documentation or cost or pricing data to
support that the awarded prices were fair and reasonable or to explain why the four
contracts were awarded for amounts significantly more than the IGEs. The contracting
officers’ employee performance standards did not include a rating element to measure the
contracting officer’s performance for determining and documenting that the prices are
fair and reasonableness as required by FAR Subpart 15.406-3.

Management Actions
During the audit, the MICC-EU contracting personnel initiated action to document
appropriate price reasonableness determinations. Since June 2009, the contracting
officers prepared negotiation documents for each contract to summarize the negotiation
process and document the price reasonableness determination. We reviewed an example
of a negotiation document and determined that the example met FAR requirements for
documenting significant differences between a contractor’s proposal and an IGE. When
we asked if standard operating procedures existed for questioning contract line item
numbers that had significant variances from the IGE, the contracting officers stated that
there were no standard operating procedures currently in place. In September 2009, the
chief contracting officer decided on a standard variance amount and sent an e-mail to all
contracting officers requiring them to question contract line item numbers with a
15 percent differential between the contractor’s proposal and the IGE.

Over and Above Work
The DFARS Clause 252.217-7028, “Over and Above Work,” defines over and above
work as additional work discovered during the performance of a contract that is not
covered by the line item(s) for the basic contracted work, but is needed to complete the



                                            9


task. DFARS also states that once the proposal is received for the over and above work,
the Government and the contractor will negotiate a price.

We found that over and above work totaling $11.8 million was added to the 15 contracts
reviewed. However, the contracting officers did not use any cost comparison procedures
to determine whether the additional costs added to the contracts were fair and reasonable.
Instead, the contracting officer relied on the COR to determine whether price reasonable-
ness was met, but did not review or document the price reasonableness determined by the
COR to verify it was complete or that it met FAR Part 15 requirements. Table 2 lists the
original contract value and the value of the over and above work for of the contracts
reviewed.

                            Table 2: Over and Above Work

                                                            Value of Over and Above
                                  Original Contract
         Contract                                             Work With No Price
                                        Value
                                                           Reasonableness Justification
W912SU-06-G-0003-0006                     $1,500,500.00                    $268,290.33
W912SU-06-G-0003-0007                      1,504,200.00                     276,761.89
W912SU-06-G-0003-0008                      2,737,250.00                   1,730,162.97
W912SU-06-G-0003-0009                      6,748,220.00                   2,591,369.77
W912SU-06-G-0003-0012                      1,794,670.00                      55,488.37
W912SU-06-G-0003-0013                      2,205,020.00                     346,993.02
W912SU-06-G-0003-0017                      3,260,380.00                     868,578.89
W912SU-06-G-0003-0018                      4,049,862.00                   1,267,181.49
W912SU-06-G-0003-0019                      7,404,069.79                   1,712,683.07
W912SU-06-G-0003-0021                      2,928,889.00                     406,594.47
W912SU-06-G-0003-0024                      1,936,640.00                     258,128.82
W912SU-06-G-0003-0025                      2,161,708.00                     356,445.64
W912SU-06-G-0003-0026                      7,799,661.00                     682,091.71
W912SU-06-G-0003-0027                      3,265,882.00                     597,674.86
W912SU-06-G-0003-0029                      2,487,676.00                     334,990.26
Total                                    $51,784,627.79                 $11,753,435.56

The CORs stated that they performed price reasonableness determinations for the over
and above work based on previous contracts and Internet researches. However, the
CORs did not provide this information to the contracting officers. The chief contracting
officer stated that the only price reasonableness documentation created for the over and
above work added was the specifications worksheets signed by both the COR and the
contract-ing officer. These documents were created by the COR to initiate the contract
modifica-tions when over and above work was added. However, the contracts’
specification worksheets signed by the CORs only verified that the work identified was
technically acceptable. According to the specification worksheet, the contracting officers
were responsible for verifying that the final negotiated price was fair and reasonable.
The contracting officers stated that they relied on the CORs, as the technical experts, to
ensure fair and reasonable prices were obtained for the over and above work added to the


                                           10


contracts. The CORs did not sign contracts and were not held personally liable. The
contracting officers did not review or document the CORs’ price reasonableness
determinations to verify that they were complete or that they met FAR 15 requirements.

Conclusion
The contracting officers did not adequately comply with price reasonableness require-
ments during the award of 4 of the 15 contracts valued at $18.2 million, but they have
begun creating negotiation documents for all contracts and instructed all contracting
officers to question contract line item numbers with a 15 percent differential from the
related IGE. All 15 contracts lacked price reasonableness documentation and support
for the over and above work added, and no policy has been established to correct this
deficiency. The employee performance standards for contracting officers do not include
rating elements for holding the contracting officers accountable for completing and
documenting price reasonableness determinations.

Recommendations, Management Comments, and Our
Response
Added Recommendation
Because management developed new policies that were not formalized, we added
Recommendation B.3 to the final report.

B. We recommend that the Director, Mission and Installation Contracting Command-Fort
Eustis:

       1. Require the contracting officers to request other than cost and pricing data
from Heavy Engineering Industries & Shipbuilding Company for the ship maintenance
work performed, as required by Federal Acquisition Regulation Subpart 15.403-3,
“Requiring information other than cost and pricing data,” and document the fair and
reasonable price decision, including actions for additional work, as required by Federal
Acquisition Regulation Subpart 15.406-3, “Documenting the negotiation.” The
determination should include detailed evaluation of the prices and not merely arbitrary
comparisons between a proposal and the independent Government estimate.

        2. Establish employee performance standards for contracting officers to hold
them accountable for completing and documenting price reasonableness determinations
to include all additional work put on contract.

        3. Develop and implement formal policies for questioning contract line item
variances and officially establish the percent differential between the contractor’s
proposal and the independent Government estimate and disapprove or recompete any
differences identified.




                                            11


Director, Mission and Installation Contracting Command-Fort
Eustis, Comments Received Late
The Director, Mission and Installation Contracting Command-Fort Eustis, provided
generally favorable comments on the draft report; however, they were received too late to
be included in the final report. Therefore, if the Director, Mission and Installation
Contracting Command-Fort Eustis, does not submit additional comments, we will
consider those comments as the management response to the final report.

Due to management actions, we added Recommendation B.3 to the final report.
Therefore, we request the Director, Mission and Installation Contracting Command-Fort
Eustis, comment on Recommendation B.3 by June 21, 2010.




                                           12


Finding C. Financial Accountability
Improvements Needed
The MICC-EU contracting officer incorrectly funded the W912SU-06-G-0003-0008
contract. This occurred because the contracting officer used $2.9 million in FY 2006
funds instead of FY 2007 funds. As a result, the MICC-EU contracting officer violated
the bona fide needs rule and may have violated the Antideficiency Act.

Bona Fide Needs
Section 1502, title 31, United States Code, “Balances available,” states that “the balance
of an appropriation or fund limited for obligation to a definite period is available only for
payment of expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability.” Financial Management
Regulation 7000.14-R, volume 3, chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” states that “current fiscal year appropriations may be
obligated for those maintenance and repair contracts awarded near the end of the fiscal
year, even though contractor performance may not begin until the following fiscal year.”
The Financial Management Regulation states that “the contract shall satisfy a bona fide
need that arose in or before the fiscal year of the appropriation charged. In addition,
contracts awarded near the end of the fiscal year shall contain a specific requirement that
the work begin before January 1 of the following calendar year.” However, an
Antideficiency Act violation occurred if obligations and expenditures of funds do not
provide for a bona fide need of the fund or account and corrective funds are not
continuously available.

The Principles of Federal Appropriations Law, chapter 5, “Availability of Appropria-
tions: Time,” published by the Comptroller General, quotes the Comptroller of the
Treasury, stating that a violation of the bona fide needs rule occurs when year-end
spending is used to purchase an article not necessary for use in the fiscal year in which it
was ordered but purchased merely to use up year-end appropriations. It states that when
an obligation is made toward the end of a fiscal year for which it is clear that the need
relates to the following fiscal year, the bona fide needs rule has been violated. When this
happens, the obligation is not properly charged against the earlier appropriation, but must
be charged against the following year’s funds. In addition, the Principles of Federal
Appropriations Law states that appropriations made for a definite period of time may be
used only for expenses properly incurred during that period of time and references the
bona fide needs statute (31 U.S.C. 1502[a]).

Contract W912SU-06-G-0003-0008
The scope of work for contract W912SU-06-G-0003-0008 was to provide programmed
dry-docking, cleaning, painting, and repairs to the U.S. Army Logistics Support Vessel-4
(LSV), stationed at Muhammad al-Ahmad Naval Base, Kuwait. The original contract for
W912SU-06-G-0003-0008 was awarded by MICC-EU on September 27, 2006, and
funded with $2,933,463.92 in FY 2006 money.


                                             13

The contracting file contained e-mail communications between the customer and the
command, discussing when the LSV could have its maintenance performed. The
customer stated that the LSV was being funded with Global War on Terrorism4 money
and needed to be put on contract by the end of 2006. He stated that it was not just about
spending the money, but also about getting the time slot for the ship. The command
personnel stated that placing the LSV into the shipyard in January 2007 would not suit
the command. The command stated that they understood that using FY 2006 end of year
funds for this action was a use-or-lose situation, but they needed the actual work to be
delayed until March 2007. The customer stated that he would look for a legal avenue
in which they could defer the ship maintenance work until March 2007, but still use end
of year 2006 money to fund the effort.

The chief contracting officer requested an opinion from her legal counsel on the matter;
the chief contracting officer stated her concerns with a bona fide needs rule violation
using FY 2006 funds for the vessel when it would not go into the shipyard until at least
halfway through FY 2007. The contracting office’s legal counsel agreed and stated that
the only possible way they could use FY 2006 funds for LSV was if they ordered long-
lead items prior to December 31, 2006. The documentation the contracting officer
provided to show that a long-lead item was ordered was not adequately supported. The
item ordered could not be tracked back to contract W912SU-06-G-0003-0008 because it
contained no contract number, no billing information, and was not located in the
contracting file. Instead, the contracting office had to obtain the documentation from the
contractor when the auditors requested support for the long-lead items. After reviewing
the contracting file, we concluded that a bona fide need did not exist for the ship in
FY 2006. From available e-mail documents, it is apparent that the contracting officer
was aware that the work on the ship would not commence until March 2007. In addition,
the contract did not contain the specific requirement that work begin before January 1 of
the following calendar year and the contracting officer did not document in the contract-
ing file that she verified that work began on the ship prior to the end of the year.

Conclusion
The contracting officer violated the bona fide needs rule for contract W912SU-06-G-
0003-0008 and potentially violated the Antideficiency Act. The contracting officer
should have funded the contract with FY 2007 funds instead of FY 2006 funds. By using
the wrong year funds, the contracting officer may have circumvented Congress’
constitutional powers of controlling the budgetary expenditures made by the Federal
Government.




4
 Global War on Terror was the term used to refer to military operations in Iraq and Afghanistan. These
operations are now known as Operations in Southwest Asia.

                                                   14

Recommendations, Management Comments, and Our
Response
C.1. We recommend that the Director, Mission and Installation Contracting Command-
Fort Eustis:

   a.		 Correct prior incorrect funding for contract W912SU-06-G-0003-0008 with the
        correct appropriate and fiscal year funds, if available. If those funds are not
        available, then an Antideficiency Act violation has occurred.

   b.		 Review all maintenance repair contracts awarded near the end of a fiscal year to
        ensure that the contract requires work to begin before January 1 of the following
        calendar year and that appropriate contract documentation is included in the
        contracting file.

   c.		 Develop internal controls to ensure that all maintenance repair contracts awarded
        near the end of a fiscal year require work to begin before January 1 of the
        following calendar year and appropriate contract documentation is obtained for
        the contracting file.

Director, Mission and Installation Contracting Command-Fort
Eustis, Comments Received Late
The Director, Mission and Installation Contracting Command-Fort Eustis, provided
generally favorable comments on the draft report; however, they were received too late to
be included in the final report. Therefore, if the Director, Mission and Installation
Contracting Command-Fort Eustis, does not submit additional comments, we will
consider those comments as the management response to the final report.

C.2. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller):

   a.		 Initiate a preliminary review of the potential Antideficiency Act violation
        within 10 days of the final report to determine whether a violation occurred.

   b.		 Complete a preliminary review within 90 days as required by DOD
        Regulation 7000.14-R, “DOD Financial Management Regulation,”
        volume 14, chapter 3, “Preliminary Reviews of Potential Violations,” and
        provide the results of the preliminary investigation to the Office of Inspector
        General.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Assistant Secretary of the Army (Financial Management and Comptroller) agreed
with Recommendation C.2. The Assistant Secretary of the Army (Financial Management
and Comptroller) stated that pursuant to volume 14, chapter 3 of the Department of


                                           15


Defense Financial Management Regulation, a directive was sent to the U.S. Army
Materiel Command on March 30, 2010, requiring them to initiate a preliminary review.

Our Response
The Assistant Secretary of the Army (Financial Management and Comptroller) comments
were responsive, and the actions meet the intent of this recommendation.




                                          16


Appendix. Scope and Methodology
We conducted this performance audit from March 2009 through March 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is the second in a series of reports on the Army and Navy ship maintenance
contracts. We announced this audit in March 2009 and judgmentally selected 17 Navy
Fleet and Industrial Supply Center Sigonella Detachment Bahrain contracts, 15 Army
MICC-EU contracts, and 7 Naval Sea Systems Command technical instructions, valued
at $96,839,887, based on geographical location and high dollar value. We selected this
sample from a universe of 2,934 contracts valued at $171,901,765. However, during the
fieldwork stage of the audit, the team identified that the potential issues pertaining to the
Fleet and Industrial Supply Center Sigonella, Army, and Naval Sea Systems Command
contracts were notably different. This report addresses the 15 Army contracts, valued at
approximately $51.8 million. We met with officials from the Army Materiel Command,
Army Sustainment Command, TACOM Life Cycle Management Command, and the
Surface Deployment and Distribution Command at Fort Belvoir, Virginia. We visited
MICC-EU Vessels Branch in Norfolk, Virginia, from April 27, 2009, through May 1,
2009. We also met with officials from the U.S. Army Central Command and visited the
CORs stationed in Kuwait from June 5, 2009, to June 8, 2009. The scope of this project
is limited to the specific Army contracts observed during our site visit to the MICC-EU
contracting office in Virginia and to the HEISCO shipyard and Kuwait Naval Base in
Kuwait. The contracts we reviewed were awarded between September 26, 2006, and
March 10, 2009. The results of the review of the 15 Army contracts are included in this
report, but follow-on reports will address the issues regarding the other contracts.

We reviewed Federal and DOD criteria regarding quality assurance and surveillance to
evaluate whether the MICC-EU vessels maintenance contracts in Southwest Asia
complied with the criteria. We conducted extensive research of Federal and DOD criteria
relating to contract quality assurance and surveillance requirements, competition, and
price reasonableness requirements. The specific criteria reviewed included the FAR, the
DFARS, Government Auditing Standards, and the United States Code.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System-Next
Generation to help choose our judgmental sample of contracts for the audit. We queried
all contract actions related to ship maintenance performed in the U.S. Central Command
countries since FY 2004. However, we did not rely on this data to support our findings.
Therefore, we did not perform a reliability assessment of the computer-processed data.




                                             17


Prior Coverage
No prior coverage has been conducted on ship maintenance contracts in Southwest Asia
for MICC-EU during the last 5 years.




                                         18


Assistant Secretary of the Army (Financial Management
and Comptroller) Comments




                                        DEPARTMENT OF THE ARMY
                               OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                  FINANCIAL MANAGEMENT AND COMPTROLLER
                                             109 ARMY PENTAGON
                                          WASHINGTON DC 203t0-(l109
                                                                                  AI'fl   2 2010


     MEMORANDUM THRU Auditor General, Department of the Army, 3101 Park Center
     Drive, Alexandria, Virginia 22302-1596

     FOR Inspector General, Department of Defense, Defense Business Operations, 400 Army
     Navy Drive, Arlington, Virginia 22202-4704

     SUBJECT: Draft report, Army Vessels Maintenance Contracts in Southwest As ia (project
     number: D2009-DOOOAS-0163_001)


     1. We appreciate the opportunity to comment on subject report and are providing our
     reply to Recommendation C2.

     2. Pursuant to Volume 14, Chapter 3 of the Department of Defense Financial
     Management Regulation (February 2008), the Army is required to initiate a
     preliminary review within 30 days of the receipt of draft audit findings alleging that a
                                  Click to add JPEG file
     potential ADA may have occurred. A directive was sent to the U.S. Army Materiel
     Command on March 30, 2010 requiring them to initiate a preliminary review .

     3.           of contact for this                                 • • • w'ho can be reached at




                                         Depu   ~-~ J
                                                 As '
                                                         J . r da
                                                             ec      of the Army
                                                (Financial Operations)
Fleet and Industrial Supply Center, Sigonella, Detachment
Bahrain Comments




                                      Office of General Counsel
                             Fleet and Industrial Supply Center Sigonclla
                                         Detachment Bahrain
                                          PSC 451 BOX 430
                                         FPO AE 09834-2800

                                                                                 16 March 2010

       From: Counsel, FlSCSI Detachment Baluain
       To:   Depaltment of Dcfcnsc Inspector General

       Subj:   Draft Report Army Vessels Maintenance Contracts in Southwest Asia
               (pcoject No. rn009-nooOAS-0 16300 I)

       I.      In response to Recommendation A.2 oftlle subject draft report, the Naval
       Regional Contracting Center Naples, Detachment Bahrain CC'.l{CC) legal counscl lcttcr
       dated 8 June 2004 is withdrawll .

       2.      Additional questions or concerns may be directed to me at the above address or
       the following e-mail ac\;uulll:



                                                   R~~'JI
                                                   Counsel
